No. 20-928
IN THE

Supreme Court of the United States
NATIONAL COALITION FOR MEN, JAMES LESMEISTER,
AND ANTHONY DAVIS,

v.

Petitioners,

SELECTIVE SERVICE SYSTEM AND DONALD BENTON,
AS DIRECTOR OF SELECTIVE SERVICE SYSTEM,
Respondents.
On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 (as modified by this Court’s Order of November
13, 2020), that I have, this 11th day of February, 2021, served the Brief of the
Modern Military Association of America, Service Women’s Action Network, Protect
Our Defenders, Reserve Organization of America, and Enlisted Association of the
National Guard of the United States as Amici Curiae Supporting Petitioners upon
each party separately represented in this proceeding by causing an electronic copy
of the same to be delivered to counsel of record at the e-mail addresses listed below:
Ria Tabacco Mar
American Civil Liberties Union
125 Broad Street, 18th Floor
New York, NY 10004-2400
rmar@aclu.org
Counsel of Record for Petitioners

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Respondents
Pursuant to the Court’s November 13th Order, I certify that all parties have
agreed to accept such electronic service in lieu of service of paper copies. I further
certify that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

____________________________
JAIME A. SANTOS
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
jsantos@goodwinlaw.com
(202) 346-4000
February 11, 2021

Counsel of Record for Amici Curiae

2

